No. 21-29

Iu rno
$upremt [.outt of tbe @nite! $tuteg
BLAKE LEITCH.
Petitioners,
V

AMERICAN FEDERATION OF STATE, COUNTYAND MUNICIPAL
EMPLOYEES, COUNCIL 31, AFL-CIO,
Respondent

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFI CATE OF SERVI,g, .P
I, Lauren Noto, of lawful age, upon my oath state that I'did, on the 3rd day of August,
202I, serve an electronic copy of the BRIEF IN OPPOSITION in the above-entitled
case to all parties required to be served, who consented to electronic service only:
Jeffrey Michael Schwab
(Counsel of Record,)
Liberty Justice Center
208 S. LaSalle St.
Ste. 1690
Chicago, IL 60604
312.637.2280
j schw ab@libertyj ustice ce nter. or g

I certify under penalty

of perjury

that the foregoing is true and correct

uren Noto
Executed on the 3rd day ofAugust,202t

